No.

21-5298

wniQINAL
Supreme Court, U.S.
FILED

JUL 2 3 2021

SUPREME COURT OF THE UNITED STATES OFFICE OF THE CLERK
In re Rayfield Joseph Thibeaux, Petitioner
Rayfield Joseph Thibeaux
Plaintiff - Petitioner
V .
UNKNOWN PSYCHIARTIST, Eastern Louisiana Mental
Health Systems;TOM DESPORT, Psychologist, Eastern
Louisiana Mental Mental Health Systems;Darrel
Vannoy,Warden, Louisiana State Penitentiary;Jason Kent,
Warden, Dixon Correctional Institute,Respondents

Petition for Writ of Mandamus
Appeal is being tacken from the Fifth Circuit Court of Appeals
case file : 20-30200;
U.S.District Court for the Western District of Louisiana;
case file 5:20-CV-207

Rayfield Thibeaux
1800 M Street NW
Unit 33572
WasbtngtonrDG-20033

Question Presented For Review
1.1 presented new evidence in this filing to the District
Court which included the files of the Social Security
Administration on the claim I filed with its office. It is the
very same complaint I filed with the District Court.
2. The manual of the State of Louisiana Department of
Health and Hospital Office of Behavioral HealthProvision on Forensic Services at Eastern Louisiana
Mental Health Systems states that there are several
levels of forensic care at that hospital.
3. There were never any records found by the Social
Security Administration on me being in any mental
health hospitals in the State of Louisiana,but a
thorough search was done and I have the records on
file to prove it. I did not state that I suffered from a
mental illness when I filed my claim;but it was assumed
that I did by the state;
4. The Doctors on record for the Social Security
Administration implies that, what I complain of, is a
medical practice in Psychiatry;
5. This complaint has never received a trial or an order
of dismissal from the District Court;
6.1 was denied access to the court.

2.

Parties
1. Rayfield Joseph Thibeaux
2. Unknow Psychiartist
3. Tom Desport
4. Darrel Vannoy,Warden
5. Jason Kent,Warden

3.

Table of Contents
1. Question Presented for Review
2. Parties---------------------------------3. Jurisdiction--------------------------4. Statement of the case------------Argument-----------------------------------5. Certificate of Service--------------

2
-3
5
5
5
6

Table of Authority
1.28 USC 1651(a)
2.28 USC 1331
3. Federal Rules of Civil Procedure Rule 60 (b)(2)(4)(6)

T.

JURISDICTION
1. The court's jurisdiction lies within the Federal Rules of
Civil Procedure rule 60 ;
2.1 have never present the files of the Social Security
Administration's determination to any District Court and it
is the exact same claim I filed in this complaint;
3. The files of the Social Security Administration confirms my
complaint with the District Court;
4.1 was denied access to the court.
Statement of the Case
I was illegally implanted with a surreptitious monitoring
device while at Dixon Correctional Institute, which I believe
should have never came out of a mental health hospital.
Argument
The District's Court for the Western District of Louisiana was
presented with new issues when two doctors from the Social
Security Administration was included with that filing.
The first and only time I filed a claim with the Social Security
Administration was on the benefits I am receiving now. That
office search every mental health hospital in the state except
Eastern Louisiana Mental Health Systems and it is only two
miles from Dixon Correctional Institute.
For a patient to get into that hospital they had to be courtordered .
The records of the Social Security Administration Doctors will
show that it is implied that I was treated in that way but know
records were found.
5.

Doctor James B. Brown filed in his consultation based on my
claim that there were insufficient evidence to come to a
conclusion.
Doctor Cheryl A. Kennison wrote in her consultant notes that
I may have been in a mental hospital many years ago but
don't remember anything about it.
They both implied that they know of the practice.
Cerificate of Service
I, Rayfield J. Thibeaux certify that parties to the complaint and
appeal has not been served with notice of the filing.
\

^7

6.

No.

In The United States Supreme Court Of
The United States
In re Rayfield Thibeaux, Petitioner
V.
Unknown Psychiatrist, et al

APPENDIX

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
RAYFIELD JOSEPH THIBEAUX

CIVIL ACTION NO. 5:20-cv-207

VERSUS

JUDGE S. MAURICE HICKS, JR.

UNKNOWN PSYCHIATRIST,
ET AL.

MAGISTRATE JUDGE HAYES

ORDER
On October 16, 2019, pro se Plaintiff Rayfield Joseph Thibeaux (“Plaintiff’) filed in the
United States District Court, District of Columbia, a Complaint, Motion to Proceed In Forma
Pauperis, Motion for Appointment of Counsel, and Motion to have the Summons and Complaint
served by the U. S. Marshal’s Office. (Document Nos. 1, 2, 3 and 4.) Plaintiff names the following
defendants (“Defendants”): Unknown Psychiatrist and Tom Desport, both from the Eastern
Louisiana Mental Health System, and Burl Cain and Warden Van Buren, both from the Dixon
Correctional Institute. Plaintiff alleges that while he was incarcerated at the Dixon Correctional
Institute in Jackson, Louisiana, the defendants implanted a monitoring device in this body. Plaintiff
files this suit “for a Court ordered release from the monitoring system” and seeks damages. This
matter was transferred from the District of Columbia to the Western District of Louisiana on
February 14, 2020. (Document #8)
Plaintiff is known for frequently filing in this Court and in other courts. A review of Plaintiff’s
previously filed cases indicates that on February 1, 2019, the United States Court of Appeals for
the Fifth Circuit, ordered Plaintiff to pay a monetary sanction of $100.00 in Thibeaux v. Unknown
Psychiatrist, et al.. No. 18-30457 (5th Cir. 2018). The Court stated that, “Until the sanction has
been paid in full, he is BARRED from filing in this court or any court subject to the jurisdiction of
this court any pleading relating to the subject matter at issue in this matter, unless he first obtains
leave from the court in which he seeks to file such a pleading.” Plaintiff has failed to pay the

i*t*mc.fji*&

sanction fee as ordered by the Fifth Circuit Court of Appeals and has failed to seek leave to file
his complaint.
ACCORDINGLY,
IT IS ORDERED that Plaintiff Rayfield Joseph Thibeaux’s Complaint (Document#!) be and
is hereby STRICKEN from the record and this case CLOSED.
IT IS FURTHER ORDERED that Plaintiff Rayfield Joseph Thibeaux’s Motion to Proceed
In Forma Pauperis (Document #2), Motion for Appointment of Counsel (Document #3) and
Motion to have the Summons and Complaint served by the U. S. Marshal’s Office (Document
#4) are hereby DENIED as MOOT.
THUS DONE AND SIGNED, in Shreveport, Louisiana, this 17th day of March, 2020.

V

t^JL

. MAURICE HICKS, JR., CHIEF JUDGE
UNITED STATES DISTRICT COURT

Case: 20-30200

Document: 00515929632

Page: 1

Date Filed: 07/08/2021

®niteb States Court of Appeals
for tlje Jfifti) Circuit
FILED

United States Court of Appeals
Fifth Circuit

July 8, 2021
Lyle W. Cayce
Clerk

No. 20-30200
Summary Calendar

Rayfield Joseph Thibeaux,
Plaintiff—Appellant,
versus
Unknown Psychiatrist, Eastern Louisiana Mental
Health Systems; Tom Desport, Psychologist, Eastern
Louisiana Mental Health Systems; Darrel Vannoy,
Warden, Louisiana State Penitentiary; Jason Kent,
Warden, Dixon Correctional Institute,
Defendants—Appellees.

Appeal from the United States District Court
for the Western District of Louisiana
USDC No. 5:20-CV-207

Before Southwick, Graves, and Costa, Circuit Judges.
JUD GMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS

ORDERED and ADJUDGED that the appeal is

DISMISSED as frivolous.

Case: 20-30200

Document: 00515929632

Page: 2

Date Filed: 07/08/2021

No. 20-30200

IT IS FURTHER ORDERED that Thibeaux is sanctioned in the
amount of $200 payable to the Clerk of this court. Until the sanction has
been paid in full, he is barred from filing in this court or any court subject to
the jurisdiction of this court any pleadings unless he first obtains leave from
the court in which he seeks to file such a pleading.

2

